NO. ___________________
_____________________________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
________________
ANTHONY MORENO,
PETITIONER,
vs.
UNITED STATES OF AMERICA,
RESPONDENT.
______________
On Petition For a Writ of Certiorari to
the United States Court of Appeals
for the Fifth Circuit
____________
PETITION FOR A WRIT OF CERTIORARI
____________
RANDALL H. NUNN
Attorney at Law
P.O. Box 1525
Mineral Wells, Texas 76068
Telephone No. (940) 325-9120
rhnunn@sbcglobal.net
Attorney for Petitioner
_____________________________________________________________

i
QUESTIONS PRESENTED
1. Does the use of an interest-balancing test to evaluate the Second
Amendment rights of a person to keep and bear arms in his home (or vehicle
where possession in a vehicle is lawful) and which allows those rights to be
restricted or taken away because a person "poses a risk to society that is
enhanced by their possessing firearms" meet the requirements of the Second
Amendment?

2. Can the right to possess firearms in the home, as guaranteed in the
Second Amendment, be taken away based on a presumption in a sentencing
guideline that does not require evidence or proof of use or possession of
such firearms for unlawful purposes?

3. Does an accused drug trafficker with no prior felony convictions or other
disqualifications have the right, under the Second Amendment, to possess
firearms for defense of home and hearth if that possession has not been
shown to be connected in any way with his drug trafficking or otherwise
unlawful or can such rights be denied to a citizen because he "poses a risk to
society that is enhanced by his possessing firearms"?

ii
PARTIES TO THE PROCEEDING
The parties to the proceeding in the United States Court of Appeals for
the Fifth Circuit were petitioner Anthony Moreno and respondent United
States of America.

iii
TABLE OF CONTENTS

Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
PETITION FOR WRIT OF CERTIORARI . . . . . . . . . . . . . . . . . . . . . . . . . .1
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
CONSTITUTIONAL, STATUTORY, AND GUIDELINES PROVISIONS
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
REASONS FOR GRANTING THE PETITION . . . . . . . . . . . . . . . . . . . . . . 5
I. The Decision Below Is an Erroneous Rule That Conflicts With the
Decisions of this Court and Other Federal Courts of Appeal . . . . . . . 5
II. The Fifth Circuit Court of Appeals Has Decided an Important
Question of Federal Law that Has Not Been, But Should Be
Settled by this Court. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

iv
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .17
APPENDIX
Opinion of United States Court of Appeals for the Fifth Circuit,
United States v. Anthony Moreno, No. 19-10401, April 23, 2020,
Fifth Circuit Court of Appeals. . . . . . . . . . . . . . . . . . . . . . Pet. App. 1a-12a

v
TABLE OF AUTHORITIES
Cases
District of Columbia v. Heller, 554 U.S. 570 (2008) . . . . . . . . . . . . . . passim
Gall v United States, 552 U.S. 38 (2007). . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
McDonald v. City of Chicago, 561 U.S. 742 (2010) . . . . . . . . . . . . . . . . . . . 1
Molina-Martinez v. United States, 136 S.Ct. 1338 (2016) . . . . . . . . . . . . . . 5
NRA v. ATF, 700 F.3d 185 (5th Cir. 2012) . . . . . . . . . . . . . . . . . . . . . . . . . . .8
United States v. Clinton, 825 F.3d 809 (7th Cir. 2016) . . . . . . . . . . . . . . . . 15
United States v. LePage, 477 F.3d 485 (7th Cir. 2007) . . . . . . . . . . . . . . . . 15
United States v. Lipford, 203 F.3d 259 (4th Cir. 2000) . . . . . . . . . . . . . . . . . 9
United States v. Moreno, 952 F.3d 686 (5th Cir. 2020) . . . . . . . . . . . . . . .2, 6
United States v. Perez-Guerrero, 334 F.3d 778 (8th Cir. 2003) . . . . . . . . . . .7
United States v. Wilson, 115 F.3d 1185 (4th Cir. 1997) . . . . . . . . . . . . . . . . .9

vi
Constitutional Provisions
U.S. Const. amend. II . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Statutes and Guidelines
21 U.S.C. § 841(a)(1) and (b)(1)(B) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
21 U.S.C. § 846 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S.S.G. § 2D1.1 (b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 3, 4
U.S.S.G. § 2D1.1 (b) (1), cmt. n.11(A) . . . . . . . . . . . . . . . . . . . . . . .1, 3, 9, 13

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner, Anthony Moreno, respectfully petitions for a writ of certiorari
issue to review the Judgment of the United States Court of Appeals for the
Fifth Circuit, entered on March 18, 2020.
This Court has held that the Second Amendment's "right of the people to
keep and bear Arms" is a "fundamental right" that is necessary to our system
of ordered liberty. McDonald v. Chicago, 561 U.S. 742, 778 (2010).
Sentencing Guideline § 2D1.1 (b)(1) provides a 2-level increase in the base
offense level "if a dangerous weapon (including a firearm) was possessed."
U.S.S.G. § 2D1.1 (b)(1). The commentary to the Guideline states that the 2level enhancement "should be applied if the weapon was present, unless it is
clearly improbable that the weapon was connected with the offense."
(emphasis supplied). § 2D1.1 (b)(1), cmt. n. 11(A).
Petitioner was punished by having his offense level increased 2 levels as
a result of his possession of 3 bolt action rifles and 2 handguns in his home
and one handgun in his truck when he was stopped and arrested. Petitioner
has effectively been barred from exercising this right unless he can show that
it is "clearly improbable" that firearms "possessed" by him in his home (and
a firearm possessed in his vehicle, as permitted under Texas law) were

2
not possessed by him "in connection with" a drug trafficking offense.
OPINION BELOW
The unpublished opinion of the United States Court of Appeals for the
Fifth Circuit United States v. Anthony Moreno, No. 19-10401, April 23,
2020, Fifth Circuit Court of Appeals, is reproduced in the Appendix. (Pet.
App. la-12a).
JURISDICTION
This Court has jurisdiction under 28 U.S.C. § 1254(1) to review the
circuit court's decision on a writ of certiorari.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1. This case involves the Second Amendment to the Constitution of the
United States which provides that:
“A well regulated Militia, being necessary to the security
of a free State, the right of the people to keep and bear
Arms, shall not be infringed."

3
United States Sentencing Guideline § 2D1.1 (b)(1) states:
§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or
Trafficking (including Possession with Intent to Commit
These Offenses); Attempt or Conspiracy.
***
(b) Special Offense Characteristics
(1) If a dangerous weapon (including a firearm) was
possessed, increase by 2 levels.
***
Commentary
Application Notes:
***
11. Application of Subsections (b)(1) and (b)(2).--

***
U.S.S.G. § 2D1.1.

4
STATEMENT OF THE CASE
Anthony Moreno ("petitioner") was charged on June 27, 2018 in a one
count Indictment in the Northern District of Texas, Fort Worth Division with
Conspiracy to Possess With Intent to Distribute a controlled substance in
violation of 21 U.S.C. § 846 and 841(a)(1) and 841(b)(1)(B). On December
13, 2018, petitioner pleaded guilty to the offense without a written plea
agreement. On April 1, 2019, petitioner was sentenced to 300 months in
prison.
Petitioner asserted five errors on appeal: (1) the district court erred in
enhancing petitioner's sentence for possession of firearms where petitioner's
possession was lawful under the Second Amendment and there was no
showing that such possession was in connection with the drug trafficking
offense; (2) the Sentencing Guidelines are an unconstitutional delegation of
powers that belong to Congress and sentencing enhancements under such
Guidelines are invalid; (3) the Commentary to U.S.S.G. § 2D1.1 (b)(1)
conflicts with the Guidelines and is invalid; (4) the district court erred in
applying a sentencing enhancement for maintaining a drug premises, and (5)
petitioner's relevant conduct did not involve any importation activities and
his offense of conviction did not involve importation of methamphetamine.

5
This petition involves only the first alleged error involving violation of the
Second Amendment, which petitioner contends placed him in the wrong
offense level under the United States Sentencing Guidelines ("Guidelines")
and resulted in improperly calculating petitioner's Guidelines range, thereby
committing significant procedural error. See Molina-Martinez v. United
States, 136 S.Ct. 1338, 1345-46 (2016).
The Fifth Circuit affirmed the judgment of the district court in an opinion
which concluded, in pertinent part, that the enhancement for possessing
firearms in connection with his drug offense was constitutional as applied to
Moreno since "drug traffickers pose a risk to society that is enhanced by
their possessing firearms" and that the "historical traditions associated with
the Second Amendment do not include ensuring admittedly-guilty-drugoffense conspirators' sentences are not enhanced when they have possessed
firearms during activities related to their offense."
REASONS FOR GRANTING THE WRIT
I. The Fifth Circuit Court of Appeals decision is in conflict with
decisions of this Court and other Circuits over the standard that should
be applied in evaluating Second Amendment challenges to statutes and
guidelines.

6
A. The Court Below Used an Improper Test in Evaluating the
Constitutionality of the Guideline as Applied to Petitioner.
The court in this case evaluated the provisions of the guideline, using the
interpretations of the commentary, and weighed the interests protected by the
Second Amendment against the government public safety concerns. The
court determined and applied what it considered to be "the appropriate level
of means-ends scrutiny--either strict or intermediate" and selected
intermediate scrutiny.
This Court explicitly rejected the invitation to evaluate Second
Amendment challenges under an "interest-balancing inquiry, with the
interests protected by the Second Amendment on one side and the
governmental public-safety concerns on the other." See District of Columbia
v. Heller, 554 U.S. 570, 689 (2008) (Breyer, J., dissenting). The application
of the test adopted by the Fifth Circuit in United States v. Moreno did just
that. The analysis was based on an incorrect standard.
The Fifth Circuit in Moreno stated that "drug traffickers pose a risk to
society that is enhanced by their possessing firearms." The Fifth Circuit
deprived petitioner of the protection of the Second Amendment even though
he was wise enough never to possess, use or threaten to use firearms in

7
connection with his unlawful activities and otherwise was in lawful
possession of the firearms. Petitioner could not, in any way, avail himself of
the right of self-defense for himself, his family and home because the mere
presence of a firearm in his residence could trigger a 2-level sentence
enhancement. This is analogous to a "prior restraint" that chills the exercise
of Second Amendment rights where the restraint leaves a defendant who has
never used his firearms "in connection with" the drug offense without the
right of self-defense under the Second Amendment.
A circuit split exists on the proper method of analysis of the
constitutionality of the guideline. Under the Fifth Circuit approach, the
petitioner must show that it is "clearly improbable" that the weapon was
connected with the drug offense. The burden is on the possessor of the
protected right guaranteed by the Second Amendment. At least one circuit
requires the government to prove by a preponderance of the evidence that "it
was not 'clearly improbable' that the weapon had a nexus with [the]
conspiracy." See United States v. Perez-Guerrero, 334 F.3d 778, 783 (8th
Cir. 2003). There is a circuit conflict in the standards and burdens of proof
used to evaluate the weapons enhancement application as affected by the
Second Amendment right.

8
The Fifth Circuit's two-step analytical framework that incorporates tiers
of scrutiny on a sliding scale is not in compliance with Heller and will result
in differing and conflicting interpretation and application throughout the
United States. Heller did not use a "two-step" analytical framework for the
inquiry into the constitutionality of laws and regulations restricting the
Second Amendment rights but instead looked at text, history and tradition in
determining whether a challenged law violates the right to keep and bear
arms. Heller, 554 U.S. at 626-27. Heller recognized that the Second
Amendment "codified a pre-existing right." Heller, 554 U.S. at 592.
"Constitutional rights are enshrined with the scope they were understood to
have when the people adopted them, whether or not future legislatures or
(yes) even future judges think that scope too broad." Heller, 554 U.S. at
634-35. The courts of appeal have not "filled the analytical vacuum" (see
NRA v. ATF, 700 F.3d 185, 194 (5th Cir. 2012)) but have created an
analytical framework that strays from Heller and leads into uncertainty,
unpredictability and endless unresolved disputes.
B. The Commentary to the Guideline and Some Cases Suggest
a Differentiation between Handguns and Rifles, Creating
Illogical Results.

9
The commentary to Guideline 2D1.1 (b)(1) states that "the enhancement
would not be applied if the defendant, arrested at defendant's residence, had
an unloaded hunting rifle in the closet." U.S.S.G. § 2D1.1 (b)(1), App. Note
11. (A). If a defendant can possess a "hunting rifle in the closet" and not be
subject to the 2-level enhancement under the guideline, then it is clear that
such a defendant can, if not otherwise prohibited from possession of a
firearm, lawfully possess such a firearm for self-defense in his home. Some
courts have found that drug traffickers are more likely to use a handgun than
a rifle or long gun (see, e.g., United States v. Lipford, 203 F.3d 259, 267 n.7
(4th Cir. 2000)) and some have found lacking the requirement for some
relation to the gun and the drug offense where the firearm was a rifle. See,
e.g., United States v. Wilson, 115 F.3d 1185, 1191 (4th Cir. 1997). But if the
firearm is a handgun, the presumption that it is possessed "in connection
with" the drug trafficking offense springs into being, allowing the
defendant's imprisonment to be increased by 2 levels simply because of the
type of firearm. This is an illogical and prejudicial result. The only way to
prevent this is for the defendant to show that it was "clearly improbable" that
the handgun was "connected" to the offense.
Heller describes the handgun as "an entire class of 'arms' that is

10
overwhelmingly chosen by American society for [the] lawful purpose" of
self-defense and "the most preferred firearm in the nation for protection of
one's home and family." Heller, 554 U.S. at 628-29. Yet, in the context of a
drug case, the handgun is often described as a "tool of the trade" and
therefore a part of the evidence of drug trafficking when possessed by a
defendant. It is possible for one to be involved in drug activities and not
use, or possess with the intent to use, firearms "in connection with" any
such offense. Indeed, there are people who do not use firearms in
connection with any such activities because they know the consequences
that can be expected. Do they not have any right to possess firearms for
their own self-defense and the defense of home and family? If a person can
possess a "hunting rifle in a closet" and not be subject to the 2-level
enhancement under the guideline, then it is clear that such a person can, in
fact, lawfully possess a firearm for self-defense in his home. Heller said the
handgun is the "overwhelming choice" and "most preferred firearm[] in the
nation for protection of one's home and family." Surely a pejorative term like
"tool of the trade" should not be allowed to override the effective exercise of
the enumerated right in the Second Amendment, such that a presumption in
the commentary to a guideline that mere presence of a

11
firearm is sufficient to negate that right.
The problematic issue in this case is that the connection of the firearm
with the offense must be shown before the possession can be termed
unlawful, because petitioner's right to possess the firearms in his home was
otherwise lawful. He was not a convicted felon and he had the right under
the Second Amendment to possess firearms. The government never showed,
and the district court made no finding, that the firearms were
possessed "in connection with" the drug trafficking offense, as opposed to
lawfully possessed for self-defense. To use a presumption in the
commentary to the guideline to shift the burden to petitioner to show that it
was "clearly improbable" that the firearms had a nexus to the drug
conspiracy requires petitioner to first show that he had a right before he
could exercise that right. The right is clear under the Second Amendment
and Heller, and petitioner should not be required to show his entitlement
before he can exercise the right.
A hunting rifle in a closet is acceptable according to the commentary but
a handgun in a nightstand is not. Heller said that a handgun is the most used
firearm in the United States for self-defense and that ready access is an
important aspect of that right. Heller, 554 U.S. at 629. Yet the presumption

12
in the commentary that presence of a firearm makes a handgun
presumptively unlawful in the hands of one accused of drug trafficking, and
deprives a defendant otherwise entitled to lawfully possess a handgun for
self-defense of his constitutional right under the Second Amendment. This
effectively denies the right to one entitled to exercise the right.
II. The Fifth Circuit Court of Appeals Has Decided Important
Questions of Federal Law that Have Not Been, But Should Be
Settled by this Court.
A. A Presumption in the Commentary of a Sentencing Guideline
Cannot Override the Guarantee of the Second Amendment's
Right to Possess a Firearm for Self-Defense.
A presumption that uses "presence" of the handgun as a substitute for
proof of "connection" cannot meet the government's initial burden. When
possession "in connection with" the drug offense is not shown, the right to
possess for self-defense still exists, and the possession is, and was, lawful.
Not just lawful, but constitutionally protected. Petitioner had a "protected
constitutional right" to have a firearm in his residence and in his nightstand.
See Heller, 554 U.S. at 629. If petitioner has that right, a "presumption"
found in the commentary to the Guideline (which is inconsistent with that
Guideline) cannot take precedence and override his enumerated
constitutional right, making his lawful possession for self-defense into

13
"unlawful" possession simply because the firearms were "present" in his
residence, even though no connection with the offense of conviction was
shown.
The commentary to the Guideline clearly uses an "interest-balancing
inquiry" to determine when possession of firearms may be restricted. The
Application Note states that "[t]he enhancement for weapon possession ...
reflects the increased danger of violence when drug traffickers possess
weapons." The court below also used such an "interest-balancing inquiry" in
determining that petitioner's possession triggered the enhancement. The
presumption described in the commentary to the Guideline clearly exempted
only unloaded hunting rifles in a closet from the application of the
enhancement. There was no recognition of the historical right to possess
firearms for self-defense or defense of home and hearth. In fact, the
commentary which informs the sentencing enhancement subordinates the
use of firearms for self-defense, as described and permitted in Heller, to the
effort to increase punishment for "drug traffickers [who] possess weapons"
based on a risk of "increased danger of violence."
Where a "protected constitutional right" is involved, the government
should have the burden to prove that the firearm was "connected with" the

14
drug offense or else leave the protected right intact. So long as the
government cannot prove unlawful use, the protected natural right remains.

B. If Petitioner is not Otherwise Denied the Right of Self-Defense
Guaranteed by the Second Amendment, He is Entitled to
Possess Firearms in His Home for Self-Defense.
One engaged in a criminal activity may well have periods in which he is
not engaging in unlawful criminal conduct. He has a zone of lawful
conduct, which should allow for the possibility of lawful exercise of the
protected constitutional right provided under the Second Amendment, if his
possession and use of a firearm has not been compromised by unlawful use
of that firearm "in connection with" the unlawful drug activities. Petitioner
had no felony convictions at the time of his offense and was never shown to
have used or possessed the firearms "in connection with" the drug offense.
So long as he kept such firearms "fenced off" from such activities (which
many involved in such activities are wise enough to do), he retained his
Second Amendment rights.
The district court made no findings with respect to petitioner's possession
of the firearms. The district court adopted, at sentencing, the "findings" of
the probation officer "in the addendum to the PSR." There were no findings

15
in the PSR or in the Addendum to the PSR relevant to this issue and
essentially no fact findings at all by the district court relevant to this issue.
See, e.g., United States v. Clinton, 825 F.3d 809, 813 (7th Cir.
2016)(essentially no fact findings by district court regarding proximity of
firearms to drugs). The mere fact that guns and drugs are found near each
other does not establish a nexus between them. See United States v. LePage,
477 F.3d 485, 489 (7th Cir. 2007). Petitioner never admitted that he used his
residence to distribute drugs from or that he used it to store or manufacture
drugs. There was no evidence of such distribution or storage from his
residence.
Possession of a gun alone is not blameworthy. Petitioner's membership in
a drug conspiracy is all that stands between innocent and criminal conduct
where the label of "drug conspirator" is all that is required to activate the
presumption that the presence of the firearm shifts the burden to
the defendant to prove himself innocent. How does one prove a negative?
How does one who states that something never occurred "prove" that it did
not happen? And if he cannot do that to the satisfaction of a skeptical judge,
he is enhanced. Once a place is labeled a distribution point or a storage
location and a firearm is "present" that is enough to shift the burden of proof

16
to the defendant to "prove" that it was "clearly improbable" that the firearm
was connected with the drug offense. That can only be done by denials and
statements of individuals that they never saw petitioner with a firearm at the
site of any drug transaction or storage location. But there were no
allegations of any such conduct to begin with, only the use of a presumption
that equates "presence" with possession of a firearm "in connection with" the
drug offense, shifting the burden to the defendant to disprove something that
was never shown. A presumption based upon such weak inferences should
never be allowed to trump a protected constitutional right of the stature of
the Second Amendment. The Second Amendment's guarantee is stronger
than that.

17
CONCLUSION
For the foregoing reasons, Petitioner respectfully submits that the
petition for writ of certiorari should be granted.
DATED: September 16, 2020
Respectfully submitted,

s/Randall H. Nunn
Randall H. Nunn
Attorney at Law
P.O. Box 1525
Mineral Wells, Texas 76068
(940) 325-9120
Attorney for Petitioner

